                     CLOSEOUT FOR M94100032
     This case came to OIG on October 19, 1994, when
               -eht
the President of                                     (theTociety),
informed us that the - societv -6ad- received as allesation of


                   of the                                 (Subject
                                                         Executive
inquiry and determined that there was substance to the allegation.
It had appointed an investigating committee of academic scientists
and asked if OIG would defer investigation of this case to permit
the Society to perform its own investigation.
     Because the co-principal investigators on the award were
officers of the Society, OIG decided that we needed to take special
precautions to guard against real or apparent conflicts of interest
that could damage the credibility of the Society's investigation
and make it impossible for OIG to make use of the investigation's
findings.     After receiving detailed information about the
investigating committee members and their independence from the
Society's Council and executive office, we concluded that there was
no reason to doubt their ability or willingness to conduct a
disinterested investigation.
     The Society's investigation found that no misconduct had
occurred. OIG examined the Society's investigation report and,
after receiving a letter clarifying one issue, determined that it
was complete, fair, and accurate and that it provided sufficient
basis for OIG to close the case.        . .




     The Society had learned of the allesed ~lasiarismfrom Drs.
                                                (Complainant #2)



                                           of the same title (the
Center renewal project). Complainant #2 was a close collaborator of
Complainant #1 and was involved in supervising the operation of the
Center project and the Center renewal project . Complainant #11s
co-PI on the Center renewal project was
(Subject #3 , formerly the project director for
                                             - t
                            page 1 of 3                     M94-32
                     CLOSEOUT FOR M94100032
and currently a part-time faculty member at p                     .
Subject #3 was dismissed from the Center after a dlspute with the
complainants.
     While Subject #3 was project director for the Center renewal
project, he had supplied Subject #1 with the text of the Center
renewal project proposal. The original Center proposal had been
drafted principally by Complainant #1 and a project assistant; the
Center renewal proposal was written mostly by Subject #3, with
Complainant #1 providing editorial assistance.         The renewal
proposal was based on the text of the original proposal and
preserved some of the original language.
     According to the investigation report, Subject #1 asked
Subject #3 if she could borrow wording from the renewal proposal,
and Subject #1 told her that she could "lift what is useful. When
this exchange took place, Subject #3 was included as a co-PI on the
Society project, although he was later, by mutual agreement, named
as a consultant instead. Subject #3 informed Complainant #2 that
he had discussed with Subject #1 her plan to submit a proposal
modelled on the Center projects, and Complainant #2 raised no
objection. Subject #1 wrote the Society proposal and submitted it
before either the complainants or Subject #3 had seen it. She sent
Subject #3 a copy, but it did not arrive at the Center until after
Subject #3 had been dismissed from his position there. At that
point, Complainant #2 first saw the text of the Society proposal by
opening Subject #3's business mail and discovering a copy.
Although the complainants expressed some concern to Subjects #1 and
#2 about their initiation of a project that was so similar to the
Center project, they eventually sent NSF a letter endorsing the
project.
     Complainant #2 subsequently discovered that there were
similarities in wording between the Center and Society proposals
and raised the issue with the Society, which decided to
investigate.
     The investigating committee concluded that the similarity in
ideas between the Society and Center proposals was not caused by
misconduct.. The committee noted that new projects are supposed to
build on previous work and that the Society amply acknowledged its
debt to the Center's educational approach. OIG confirmed that the
evidence supported the committee's conclusion.
     With regard to the textual similarities between the proposals
submitted by the Center and the Society, the Committee also
concluded that there was no misconduct. The evidence indicated
that Subject # 3 , as project director for the Center project,
authorized Subject #1 to use excerpts from the text of the Center
renewal proposal. Subject #3 had written much of that proposal.
                           page 2 of 3                      M94-32
                     CLOSEOUT FOR M94100032
OIG believes that in this situation it cannot be considered
misconduct for a project director to share text that he wrote for
his project with a scientist developing another related project in
which the project director was actively involved. As director of
the Center project, Subject #3 reasonably believed that he had the
authority to lend Subject #1 the assistance he gave her and did not
need permission from other project personnel to do so. Subject #1
reasonably believed that, having received permission from Subject
#3, she was authorized to excerpt passages from the Center proposal
without attribution. OIG concluded that her using these passages
without attribution with this authorization, once it had been
decided that Subject #3 would not be a co-PI on the proposal, was
not appropriate. We also determined, however, that under these
circumstances her action could not be considered a serious
deviation from accepted practices and hence was not misconduct.
     The Committee noted that the ambunt of copying from the Center
proposal was small and that the Society proposal I1cites the
[Center] proposal several times, although not in every place where
use is made of the [Center] proposal text.     These facts further
buttress the conclusion that no misconduct occurred.
     The committee received testimony indicating that information
sharing and lloccasionalverbatim replicationl1 are common in the
science education community. The Committee decided, however, that
it could not llconcludethat such practices excuse the instances of
copying without attribution present here."
     The Committee chastised Subject #1 for not attributing all
passages taken verbatim from the Center renewal proposal. It also
said that "it would have been appropriate and courteo~s~~(p.29) for
her and/or Subject #2 to have informed Complainant #I, the PI on
the Center renewal project, that they were submitting a related
proposal under the auspices of the Society.         The Committee
recommended that Subjects #1 and #2 send a note of regret to
Complainant #I, and they have done so. The Committee further
opined that Subject #3 should have informed Complainant #1 "of his
[Subject #3's] role as a consultant and the significant assistance
he providedv to Subject #I. But, although OIG concluded that it
was arguable that Subject #3 exceeded his authority as project
director in some of his actions, there is no reason, either in the
evidence or in the Committee report, to believe that he did so in
ways that can be construed as misconduct. The Committee likewise
concluded that Subject #3's actions did not seriously deviate from
those that could be appropriately taken by a project director.
     On the basis of the society's investigation, we closed our
inquiry without a finding of misconduct. No further action will be
taken on this case. OIG wrote to the subjects and the complainants
informing them of the outcome of the case.
                           page 3 of 3                      M94-32
